November 21, 2008

JULIE S. MOORE
SECRETARY OF THE BOARD OF GOVERNORS

SUBJECT: Audit Report – Postal Service Board of Governors Travel and
         Miscellaneous Expenses for Fiscal Year 2008
         (Report Number FT-AR-09-003)

This report presents the results of our audit of the Board of Governors (Board) travel
and miscellaneous expenses for fiscal year (FY) 2008 (Project Number
08BG001FT000). We conducted the audit in response to a Board resolution requiring
annual audits of its travel and miscellaneous expenses. This audit addresses financial
risk. See Appendix A for additional information about this audit.

Conclusion

Travel and miscellaneous expenses (totaling $116,241) and external professional fees
(totaling $6,703) were properly supported and complied with Board policies. However,
we identified an internal control issue pertaining to the purchase and approval of
professional services that, if corrected, could increase the effectiveness of
administering, monitoring, and reporting Board expenditures.

Purchasing, Receiving, and Approving Professional Services

The Board Office did not adequately segregate duties for purchasing, receiving, and
approving professional services. On six occasions, one individual purchased, received,
and approved stenographic services totaling $1,335. Postal Service policy1 states no
one employee may be responsible for any two functions, which includes issuing
purchase orders, approving purchases, and processing invoices. The Board Office
needs to divide or segregate key duties and responsibilities among different individuals
to reduce the risk of error. The Board Office was not aware these duties need to be
separated.

When we notified the Board Office of the issue, the Secretary of the Board separated
the duties for obtaining professional services effective October 29, 2008. Since the


1
    Handbook F-1, Accounting and Reporting Policy, Section 4-2.1.1.2, July 2008.
Postal Service Board of Governors Travel and                                                    FT-AR-09-003
 Miscellaneous Expenses for Fiscal Year 2008


Board Office took corrective action, we are not making a recommendation at this time.
However, we will continue to monitor this issue as part of our future annual audit work.

Observation

A governor’s travel expenses2 were charged to account 56605, Meetings and
Conferences. Rather, they should have been charged to account 56316, Travel –
Board of Governors. This occurred because the governor’s firm paid his travel
expenses and requested reimbursement from the Postal Service. However, the
Accounts Payable Excellence (APEX) system does not permit use of account number
56605 when an entity bills travel expenses. By using the correct account number,
management is provided with more reliable information to assist in decision making.

PROGRESS ON PRIOR YEAR’S RECOMMENDATION AND OBSERVATIONS

We followed up on the prior year’s recommendation and observations related to our
Board audit.3

Travel Voucher Approval and Verification

Last year, we reported that management did not always comply with Postal Service
policies and procedures over approval and verification of governors’ travel vouchers.
We recommended the Secretary of the Board of Governors coordinate with the
Manager, Corporate Accounting, to implement and communicate formal, written policies
and procedures for processing Board travel vouchers to all applicable personnel.

The Secretary of the Board and the Manager, Corporate Accounting, implemented and
communicated a Checklist for Board of Governors Expense Report Form 1231 in
Connection with Policies Relating to Governors’ Official Expenses (“Checklist”),
effective April 2, 2008. During FY 2008, we did not identify any instances of duplicate
payments.

Management’s corrective actions resolved the issue identified in the report.
Accordingly, we closed this recommendation on April 8, 2008.

Observations

Our audit report for FY 2007 also observed that four expense vouchers were missing
the second page of Postal Service Form 1231, Board of Governors/Officers Expense
Report; two vouchers were not timely submitted by a governor; and a governor did not
obtain written authorization from the Chairman to arrive 2 days in advance of a
scheduled board meeting.

2
 Travel expenses were for cab, air, and train fares totaling approximately $7,602.
3
 Postal Service Board of Governors Travel and Miscellaneous Expenses for Fiscal Year 2007 (Report Number
FT-AR–08–008, dated February 15, 2008).




                                                      2
Postal Service Board of Governors Travel and                               FT-AR-09-003
 Miscellaneous Expenses for Fiscal Year 2008



During FY 2008, we did not identify any instances of missing expense voucher pages,
timeliness issues, or instances where the necessary written authorization was not
obtained.

We are not making any recommendations in this report. As a result, management
chose not to respond formally to this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc: H. Glen Walker
    Vincent H. DeVito, Jr.
    Jo Ann E. Mitchell
    Stephen J. Nickerson
    Katherine S. Banks




                                               3
Postal Service Board of Governors Travel and                                                          FT-AR-09-003
 Miscellaneous Expenses for Fiscal Year 2008


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Reorganization Act of 1970, as amended, established the Board, comprised
of nine governors appointed by the President with the advice and consent of the
Senate, the Postmaster General, and the Deputy Postmaster General. As of
September 30, 2008, the Board consisted of nine governors, the Postmaster General,
and the Deputy Postmaster General.

The Board directs and controls the expenditures of the Postal Service, reviews its
practices and policies, and establishes objectives and goals in accordance with Title 39,
United States Code. On July 8, 1986, the Board passed Resolution Number 86-12,
which requires annual audits of the Board’s travel and miscellaneous expenses.

The Board generally meets monthly in Washington, D.C., or other locations where
members can visit Postal Service facilities or large mailer operations. In FY 2008, the
Board held 22 meetings.4 For the fiscal year ended September 30, 2008, the Board
incurred $116,241 in travel and miscellaneous expenses and $6,703 in external
professional fees.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether travel and miscellaneous expenses (including
external professional fees) of the Board were properly supported and reasonable and
complied with Postal Service policies and procedures and Board policies. To
accomplish our objective, we conducted fieldwork from February through November
2008. We used the Board’s Policy Relating to Governors' Official Expenses and Postal
Service policies and procedures as criteria in our evaluation. We reviewed all 95
vouchers processed under finance number 101099 through the APEX system for
governors’5 travel and miscellaneous expenses incurred during FY 2008. At the request
of the independent public accountant, Ernst & Young, LLP, we also reviewed all
governors’ professional fees incurred during the same period.

We conducted this audit from February through November 2008 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. Our tests of controls were limited to those
4
  Meetings include full Board regular, annual, and special meetings and committee meetings, but do not include other
official functions such as stamp dedication ceremonies. A governor may participate by telephone in these meetings
and, thus, not incur travel costs.
5
  We have not included the Postmaster General and Deputy Postmaster General’s travel and representation
expenses in the scope of this audit. They are included in the scope of the Postal Service officers’ travel and
representation expenses audit.




                                                         4
Postal Service Board of Governors Travel and                                            FT-AR-09-003
 Miscellaneous Expenses for Fiscal Year 2008


necessary to achieve our audit objective. Our procedures were not designed to provide
assurance on internal controls. Consequently, we do not provide an opinion on such
controls. Also, our audit does not provide absolute assurance of the absence of fraud
or illegal acts due to the nature of evidence and the characteristics of such activities.
We discussed our observations and conclusions with management officials on
November 19, 2008, and included their comments where appropriate.

We relied on computer-generated data from the APEX system. We performed specific
internal control transaction tests on this system’s data, to include tracing selected
financial information to supporting source documentation. For example, we verified
Board travel payments recorded in APEX to hard copy original travel vouchers.

PRIOR AUDIT COVERAGE

                     Report          Final Report       Monetary
 Report Title       Number               Date            Impact            Report Results
Postal Service    FT-AR-08-008          2/15/08          $2,527    Travel and miscellaneous
Board of                                                           expenses totaled
Governors’                                                         approximately $92,600 and
Travel and                                                         external professional fees
Miscellaneous                                                      totaled $1,300 and were
Expenses for                                                       properly supported and
Fiscal Year                                                        complied with Board policies.
2007                                                               However, management did
                                                                   not always comply with
                                                                   Postal Service policies and
                                                                   procedures pertaining to the
                                                                   approval and verification of
                                                                   Board travel vouchers. The
                                                                   Postal Service implemented
                                                                   our recommendation, which
                                                                   is now closed.
Postal Service    FT-AR-07-003          12/5/06           N/A      Travel and miscellaneous
Board of                                                           expenses (totaling
Governors’                                                         approximately $63,000) and
Travel and                                                         external professional fees
Miscellaneous                                                      (totaling approximately
Expenses for                                                       $21,000) which the Board
Fiscal Year                                                        incurred in the fiscal year
2006                                                               ended September 30, 2006,
                                                                   were properly supported and
                                                                   complied with the Board of
                                                                   Governors’ guidelines and
                                                                   Postal Service policies and
                                                                   procedures. We did not
                                                                   make any recommendations.




                                                    5
Postal Service Board of Governors Travel and                                    FT-AR-09-003
 Miscellaneous Expenses for Fiscal Year 2008




Postal Service    FT-AR-06-001         11/16/05       N/A   Our audit disclosed that
Board of                                                    travel and miscellaneous
Governors                                                   expenses (totaling
Travel and                                                  approximately $118,000)
Miscellaneous                                               and external professional
Expenses for                                                fees (totaling approximately
Fiscal Year                                                 $64,000) which the Board
2005                                                        incurred in the fiscal year
                                                            ended September 30, 2005,
                                                            were properly supported and
                                                            complied with the Board of
                                                            Governors’ guidelines and
                                                            Postal Service policies and
                                                            procedures. We did not
                                                            make any recommendations.




                                                  6
